<html>
<title> - PERSPECTIVES ON MIXED MARTIAL ARTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                   PERSPECTIVES ON MIXED MARTIAL ARTS

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2017

                               __________

                           Serial No. 115-76






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-335                         WASHINGTON : 2018 





















                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
                                       Ranking Member
GREGG HARPER, Mississippi            BEN RAY LUJAN, New Mexico
  Vice Chairman                      YVETTE D. CLARKE, New York
FRED UPTON, Michigan                 TONY CARDENAS, California
MICHAEL C. BURGESS, Texas            DEBBIE DINGELL, Michigan
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
DAVID B. McKINLEY, West Virgina      JOSEPH P. KENNEDY, III, 
ADAM KINZINGER, Illinois                 Massachusetts
GUS M. BILIRAKIS, Florida            GENE GREEN, Texas
LARRY BUCSHON, Indiana               FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)





















  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     2
Hon. Markwayne Mullin, a Representative in Congress from the 
  State of Oklahoma, opening statement...........................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    62

                               Witnesses

Marc Ratner, Vice President of Regulatory Affairs, UFC...........     7
    Prepared statement...........................................    10
Greg Sirb, Executive Director, Pennsylvania State Athletic 
  Commission.....................................................    15
    Prepared statement...........................................    17
Kristen Dams-O'Connor, M.A., Ph.D., Director, Brain Injury 
  Research Center, Icahn School of Medicine at Mount Sinai.......    30
    Prepared statement...........................................    32
Randy Couture, President, Xtreme Couture MMA.....................    40
    Prepared statement...........................................    42

                           Submitted material

Statement of Bellator MMA........................................    64
Statement of Mr. Jon Fitch, professional MMA fighter.............    67
Statement of groups on behalf of the UFC.........................    30
Article entitled, ``Women have been boxing in the shadows for too 
  long,'' The New York Times Magazine, August 15, 2016...........    73
Article entitled, ``The Feds want to go into the matchmaking 
  business,'' National Review, December 7, 2016..................    78
Article entitled, ``Don't let Congress put a choke hold on mixed 
  martial Aarts,'' National Review, November 5, 2017.............    80
Article entitled, ``When did micromanaging mixed martial arts 
  become Congress' job?'' Washington Examiner, December 7, 2016..    83
Article entitled, ``The GOP shouldn't be growing the regulatory 
  state,'' The Daily Caller, December 8, 2016....................    86

 
                   PERSPECTIVES ON MIXED MARTIAL ARTS

                              ----------                              


                       THURSDAY, NOVEMBER 9, 2017

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2123, Rayburn House Office Building, Hon. Robert Latta, 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Harper, Burgess, Lance, 
Guthrie, Bilirakis, Bucshon, Mullin, Walters, Costello, Duncan, 
Schakowsky, Lujan, Welch, Kennedy, Green, and Pallone (ex 
officio).
    Staff Present: Kelly Collins, Staff Assistant; Zachary 
Dareshori, Staff Assistant; Melissa Froelich, Chief Counsel, 
DCCP; Adam Fromm, Director of Outreach and Coalitions; Ali 
Fulling, Legislative Clerk, O&I, DCCP; Elena Hernandez, Press 
Secretary; Zach Hunter, Director of Communications; Paul 
Jackson, Professional Staff, DCCP; Bijan Koohmaraie, Counsel, 
DCCP; Katie McKeogh, Press Assistant; Alex Miller, Video 
Production Aide and Press Assistant; Madeline Vey, Policy 
Coordinator, DCCP; Jessica Wilkerson, Professional Staff, O&I; 
Greg Zerzan, Counsel, DCCP; Michelle Ash, Minority Chief 
Counsel, Digital Commerce and Consumer Protection; Jeff 
Carroll, Minority Staff Director; Lisa Goldman, Minority 
Counsel; Caroline Paris-Behr, Minority Policy Analyst; and C.J. 
Young, Minority Press Secretary.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Good morning. I would like to call the 
Subcommittee on Digital Commerce and Consumer Protection to 
order. And the chair now recognizes himself for 5 minutes for 
an opening statement.
    Good morning, and thank you to our witnesses for being here 
to discuss the mixed martial arts, or MMA, this morning. This 
sport has enjoyed tremendous success since its beginnings in 
the 1990s. I would like to thank my colleague from Oklahoma, 
Mr. Mullin, for his continued work on this issue in promoting 
safety for fighters. I look forward to learning more this 
morning about MMA and Mr. Mullin's legislation as we hear the 
testimony this morning.
    The history of mixed martial arts goes back to Ancient 
Greece when the first Olympians in the 7th century B.C. fought. 
Today's MMA is far more regulated. All 50 states permit the 
sport, subject to rules governing issues like banned 
substances, equipment requirements, round length, weight 
classes, and allowing referees and physicians to hock a fight 
to protect the competitors. In some ways, MMA is regulated in a 
similar matter to boxing. However, there are differences.
    We look forward to hearing more about how MMA operates and 
is regulated today. Mixed martial arts competitions are held 
throughout the United States under the banner of both 
professional and amateur sponsors. The unified rules of mixed 
martial arts have been adopted by the largest organizers and 
regulators, including the Ultimate Fighting Championship, 
Bellator, and the Association of Boxing Commissions and 
Combative Sports.
    The rules include requirements for the fighting area, 
equipment, how fights are to be judged, the use of gloves, 
mouthpieces, and the prohibition of certain tactics like biting 
and gouging. MMA includes both men's and women's divisions, and 
in both cases, the champions of the sport have become 
internationally known celebrities.
    Nothing else rates this point more clearly than the recent 
boxing match between MMA champion Conor McGregor and boxer 
Floyd Mayweather, Jr., which reportedly drew hundreds of 
millions of viewers around the globe, including a near record 
number of pay-per-view purchases and nearly 27 million social 
media interactions.
    MMA has gone through many changes in its comparatively 
short time, as a high-profile American sport. At the hearing 
today, we will hear testimony about how the sport is regulated, 
how competitors and promoters are compensated, and what it 
takes to compete at a high level. We will hear about what state 
regulators are doing to ensure fighter safety and learn more 
about how it has become one of America's fastest growing 
sports.
    I thank our witnesses for joining us today, and I look 
forward to your testimony. At this time, I will yield to the 
gentleman from Oklahoma.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning, and thank you to our witnesses for being here 
today to discuss Mixed Martial Arts, or MMA. This sport has 
enjoyed tremendous success since its beginnings in the 1990s. I 
would like to thank my colleague from Oklahoma, Mr. Mullin, for 
his continued work on this issue and promoting safety for 
fighters. I look forward to learning more about this industry 
and Mr. Mullin's legislation this morning.
    The history of mixed martial arts goes back all the way to 
Ancient Greece, when the first Olympians in the 7th Century 
B.C. fought. Today's MMA is far more regulated-all 50 States 
permit the sport, subject to rules governing things like banned 
substances, equipment requirements, round length, weight 
classes, and allowing referees and physicians to halt a fight 
to protect the competitors.
    In some ways MMA is regulated in a manner similar to 
boxing, however there are differences. We look forward to 
learning more about how the industry operates and is regulated 
today.
    Mixed martial arts competitions are held throughout the 
United States, under the banner of both professional and 
amateur sponsors. The Unified Rules of Mixed Martial Arts have 
been adopted by the largest organizers and regulators, 
including the Ultimate Fighting Championship, Bellator, and the 
Association of Boxing Commissions and Combative Sports. The 
rules include requirements for the fighting area and equipment, 
how fights are to be judged, the use of gloves and mouthpieces, 
and the prohibition of certain tactics like biting and gouging.
    MMA bouts include both men's and women's divisions, and in 
both cases the champions of the sport have become 
internationally known celebrities. Nothing illustrates this 
point more clearly than the recent boxing match between MMA 
champion Conor McGregor and boxing great Floyd Mayweather Jr., 
which reportedly drew hundreds of millions of viewers around 
the globe, including a near record number of pay-per-view 
purchases and nearly 27 million social media interactions.
    MMA has gone through many changes in its comparatively 
short time as a high profile American sport. At the hearing 
today, we will receive testimony about how the sport is 
regulated, how competitors and promoters are compensated, and 
what it takes to compete at a high level. We will hear about 
what state regulators are doing to ensure fighter safety, and 
learn more about how it has come to be one of America's fastest 
growing sports.
    I thank our witnesses for joining us today, and we look 
forward to your testimony.

OPENING STATEMENT OF HON. MARKWAYNE MULLIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Mullin. Thank you, Mr. Chairman.
    And thank you for allowing us to have this legislative 
hearing on H.R. 44, the Muhammad Ali Expansion Act, and learn 
more about this growing industry.
    Many times we get asked the question, why is Congress 
involved in this? Well, it is the same reason why we got 
involved in boxing with the Muhammad Ali Act. Right now, we 
have actors that are acting like the Don King of the MMA world. 
MMA has become an interstate commerce. Congress has the 
responsibility when we are talking about commerce moving across 
state lines. MMA is supposed to be a professional sport, much 
like NFL, the MLB, and the NBA. But, without a merit-based 
ranking system, then how is it going to be any more than a WWE?
    Right now, we have a ranking system that is based more on 
market and marketing value than it is merit-based. In the UFC 
history, we see more and more fights being not fought for title 
fights but simply a trophy. And when you have a number one 
ranked individual not fighting for the title shot, but you have 
in the last three fights--Bisping versus Luke for the title 
fight at 185 pounds, you had number four, Bisping, fighting for 
the title. The first defending was against Dan Henderson for 
Bisping, who wasn't even in the top 10.
    And then, just recently, this weekend, you had a retired 
fighter of 4 years that had had the belt at 170 pounds, but 
came out in his first professional fight in 4 years, fight for 
the title shot, at 185 pounds. How is that a merit-based 
system? How can we sit there and honestly say to the consumers 
that are spending millions of dollars with a professional 
sport, or what they perceive to be, when they are using a 
ranking system that is not merit-based?
    The UFC is an interstate commerce industry now. Congress 
does have a role to oversee and to make sure that the consumers 
know the product to which they are buying. As I said before, 
there is a reason why Congress stepped up and kept people like 
Don King from manipulating fighters in the boxing world. If it 
was good enough for boxing, then it should be good enough for 
other combative sports, such as MMA.
    This legislation is about protecting the fighters and 
sustaining a sport which I love, which I have given blood and 
sweat and have dedicated a tremendous amount of time to. We 
want to see this sport sustainable for future generations, and 
the Muhammad Ali Expansion Act does just that.
    So I look forward to hearing our witnesses, and I 
appreciate your all's time, and I appreciate the opportunity 
that the committee has given me here.
    And I yield back.
    Mr. Latta. Thank you very much.
    And the gentleman yields back.
    At this time, the chair now recognizes the ranking member 
of the subcommittee, the gentlelady from Illinois, for 5 
minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman.
    I was new to MMA when we had our first hearing on the 
subject a year ago. I have learned a lot since then. I actually 
did some research for today's hearing. I watched a few 
highlighted videos of UFC fights. They were a little bloody, 
more bloody than I would like for my taste. I don't think I am 
going to become a regular viewer, but I know a lot of people 
like it and are involved in the sport.
    I have also met with several MMA fighters. First of all, 
what they do seems absolutely crazy to me. But if they are 
going to fight, I believe they should be able to negotiate for 
higher pay, improved safety, and working conditions, and have 
more control over themselves.
    Congressman Mullin and I come to this issue from different 
perspectives. He was an MMA fighter. I am a long-time advocate 
for safety and labor rights, and today that puts us on the same 
side. I am proud to join him as a cosponsor of H.R. 44, the 
Muhammad Ali Expansion Act.
    And now that we are holding our second MMA hearing in 12 
months, I think our subcommittee is ready to advance the 
Muhammad Ali Expansion Act.
    I expect that the bill would get strong bipartisan support 
in a markup. I am happy to talk with Congressman Mullin and 
Chairman Latta about a path forward for this legislation. 
Negotiating power for fighters is interlinked with safety. If 
you only get paid when you enter the octagon, you feel pressure 
to fight through an injury, putting yourself at greater risk.
    UFC encourages hard hits to the head by paying out bonuses 
to fighters who win by knockouts or a technical knockout. It 
might make sense for good TV, but it also puts fighters at 
greater risk of traumatic brain injury. Fighters have to secure 
their own health insurance, and low pay may push fighters to 
sign on for more fights in a year than is best for their long-
term health.
    Brain injuries are a real risk for MMA fighters. Last year, 
Jordan Parsons became the first MMA fighter to be diagnosed 
with chronic traumatic encephalopathy, or CTE. He died at 25 
years old. CTE is not a new subject for this subcommittee. We 
discussed it in the football context at a forum last year, and 
11 months ago, Dr. Ann McKee of Boston University testified 
about CTE risks in our previous hearing on MMA.
    I look forward to continuing our examination of brain 
injury risks with Dr. Kristen Dams-O'Connor from Mount Sinai. 
Her research has focused on the long-term outcome of people who 
suffer traumatic brain injuries. Very relevant to the types of 
injuries we see in MMA. Fighters should know the risks when 
they enter the ring, and organizers should want to change the 
rules and incentives to mitigate that risk in the first place.
    I especially worry about young fighters who can experience 
traumatic brain injury while their brains are still developing. 
Today, I want to hear specific suggestions for how to make MMA 
safer for its young participants. Our discussion of safety 
really comes down to the future of the sport.
    We have seen a steep drop in youth participation in 
football as more parents learn the risks of CTE. MMA has had a 
rise in popularity in recent years, but that could be 
jeopardized if athletes' parents and family members decide the 
risk is too much.
    Finally, I want to raise the issue of domestic violence. In 
2015, HBO reported that the rate of domestic violence among MMA 
fighters is double the rate of the general population. We have 
seen multiple instances of athletes with athletes' histories of 
domestic violence being welcomed into the sport. Domestic 
violence cannot be accepted as normal. I hope all actors in the 
industry take this problem seriously.
    I do thank all the witnesses for being here today, and I 
look forward to your testimony. And I yield back.
    Mr. Latta. Thank you very much.
    The gentlelady yields back.
    The chair of the full committee is not here right now. 
Would anyone like to claim the chairman's time?
    Hearing none, the chair recognizes the ranking member of 
the full committee, the gentleman from New Jersey, for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today's hearing is on mixed martial arts, or MMA, a full 
contact sport that has risen in popularity over the last 
several years, and youth interest in the sport has followed. 
MMA camps start for children as young as 6, and this year, a 
15-year-old fought against a 23-year-old in a sanctioned match 
in Montana. And I am hoping we can spend some time today 
talking about participation of kids and teens in this sport.
    For several years, this committee has been following the 
issue surrounding sports and head trauma. Most recently, 
Democratic members held a forum last month with our Judiciary 
Committee Democratic colleagues on the long-term effects of 
football-related brain injuries. And while much of the 
attention on sports and head trauma has focused on football, 
head injuries from MMA are real and concerning.
    An MMA fighter was diagnosed post-mortem with CTE last 
year. And retired fighters who were still living had reported 
headaches, forgetfulness, loss of train of thought, and other 
effects that are similar to Alzheimer's disease. We have known 
for some time that getting hit in the head is simply not good 
for you, but we are learning more and more about the effects of 
cumulative hits to the head over time and how head trauma is 
particularly dangerous to children.
    Adults need to know the full long-term risks so they can 
make informed choices to participate in contact sports. But I 
am most worried about the risks to children. Studies show that 
brain injuries in children can be more serious, and we need to 
focus on how we can reduce the risks for children who engage in 
MMA.
    It has been less than a year since our subcommittee's last 
hearing on MMA in December 2016. And while these hearings are 
raising legitimate issues that deserve to be heard, I would be 
remiss if I did not raise another sports issue deserving the 
committee's review as well as the subcommittee. There is a 
revolution in the world of sports, and that is the exploding 
popularity of sports betting. So, Mr. Chairman, sports betting 
is more popular and widely accepted than ever before, despite 
that it is still illegal in most of the country. The majority 
of Americans now believe that sports betting should be legal, 
and since it is happening anyway, we should ensure that basic 
consumer protections are attached to it.
    I have released a comprehensive bill to update our outdated 
Federal gambling laws, the Gaming, Accountability, and 
Modernization Enhancement Act, or GAME Act. And my bill allows 
states to put strong consumer protections in place to legalize 
sports betting and online gaming if they chose to. It would be 
increasing transparency and integrity in the industry and could 
bring in much needed revenue.
    So, Mr. Chairman, I think this is an issue where members on 
both sides of the aisle can find common ground. And as I said 
to you before, I hope to see the committee, or actually the 
subcommittee, hold hearings to consider my sports betting or 
GAME Act in the near future.
    And unless someone else wants time on my side, I yield 
back.
    Mr. Latta. Thank you.
    The gentleman yields back.
    And that now concludes the member opening statements. The 
chair would remind members that, pursuant to the committee 
rules, all members' opening statements will be made part of the 
record.
    Additionally, I ask unanimous consent that Energy and 
Commerce members not on the Subcommittee on Digital Commerce 
and Consumer Protection be permitted to participate in today's 
hearing.
    Without objection, so ordered.
    Again, we want to thank our witnesses for being with us 
today and taking time to testify before us. Today's witnesses 
will have the opportunity to give 5-minute opening statements 
followed by a round of questions from the members.
    Our witness panel for today's hearing will include Mr. Marc 
Ratner, the Senior Vice President of Government and Regulatory 
Affairs at Ultimate Fighting Championship; Mr. Greg Sirb, the 
Executive Director of the Pennsylvania state Athletic 
Commission; Dr. Kristen Dams-O'Connor, the Director of the 
Brain Injury Research Center at the Icahn School of Medicine at 
Mount Sinai; and Mr. Randy Couture, six-time UFC and MMA world 
champion, Hall of Famer, and President of Xtreme Couture MMA.
    And, again, thank you very much for being with us.
    And, Mr. Ratner, you have 5 minutes. And just pull the mike 
up and press the button, and thanks for being with us today.

    STATEMENTS OF MARC RATNER, VICE PRESIDENT OF REGULATORY 
AFFAIRS, UFC; GREG SIRB, EXECUTIVE DIRECTOR, PENNSYLVANIA STATE 
   ATHLETIC COMMISSION; KRISTEN DAMS-O'CONNOR, M.A., PH.D., 
    DIRECTOR, BRAIN INJURY RESEARCH CENTER, ICAHN SCHOOL OF 
 MEDICINE AT MOUNT SINAI; AND RANDY COUTURE, PRESIDENT, XTREME 
                            COUTURE

                    STATEMENT OF MARC RATNER

    Mr. Ratner. Thank you and good morning. And excuse me if--I 
have a little cold, so I may have to get some water in between. 
But my name is Marc Ratner. I am the Senior Vice President of 
Government and Regulatory Affairs at the UFC. I am pleased to 
share with you my perspectives about the regulation of mixed 
martial arts and why applying the Muhammad Ali Boxing Reform 
Act to MMA does not make sense.
    I would like you to take away three key points from my 
testimony. First, it was only because of the leadership of the 
UFC that MMA exists as you know it today. Second, at the UFC, 
athlete and health safety is paramount. And, third, the 
conflicts and corruption that give rise to the Ali Act are not 
present in MMA.
    After nearly 20 years on the Nevada State Athletic 
Commission regulating boxing, a sport that I truly love, I 
joined the UFC because I had come to admire and appreciate what 
the UFC was building. Make no mistake: It was the UFC and only 
the UFC that undertook the hard work to make MMA what it is 
today. It was not always so.
    A short 5 years before I joined the UFC, it was nearly 
bankrupt. In 2001, MMA was in disregard because it was not a 
real sport. It had no rules and events were held in unregulated 
markets. It was marketed as a blood sport. Senator John McCain, 
a huge boxing fan, famously derided the sport as human 
cockfighting.
    Today, the sport is the fastest growing professional sport 
because the fans and athletes have confidence about its well-
earned reputation for integrity. MMA was transformed from a 
shunned spectacle to a respected sport because of the UFC's 
leadership. A key to the MMA success is regulation, which 
ensures fairness, consistency and adherence to a common set of 
rules.
    Instead of avoiding regulations, the UFC ran toward 
regulation because we knew regulation was critical to 
instilling the confidence in fans and athletes that the sport 
had integrity. We traveled from state capital to state capital 
urging legislators to regulate the sport. I want to emphasize 
that no one else embarked on this hard work. We didn't ask 
Congress for a grant or a tax break. Our many competitors did 
not spend a dime or lift a finger in a single state capital 
advocating for the regulation of MMA.
    It was the UFC and only the UFC that criss-crossed the 
country and the world to convince lawmakers to legalize and 
regulate the sport. In 2001, only the State of New Jersey 
regulated MMA. Sixteen years later, we are proud to report that 
MMA is regulated by every state with an athletic commission and 
in many countries around the world.
    This subcommittee should understand that state regulation 
is real and effective. The UFC has consistently embraced 
regulation of MMA because these rules help ensure athlete 
safety and fair competition by providing a consistent set of 
rules for the sport, something that was missing in the early 
days of MMA. However, we don't wait for state regulators to 
instruct us about health and safety. We are determined to lead.
    The UFC has the most comprehensive anti-doping program in 
all of sports. It is administered by the United States Anti-
Doping Agency and requires athletes to be available for random 
drug testing 24/7, 365 days a year. The UFC is the largest 
supporter of a landmark study on fighter brain health being 
conducted by the noted Cleveland Clinic.
    Earlier this year, the UFC opened a new performance 
institute that provides its athletes with the most advanced 
training and wellness network, and unveiled new guidelines to 
improve weight management practices.
    We also treat our fighters fairly. The sport has created 
wealth and opportunity for many for whom no such opportunity 
previously existed. Today, former collegiate and Olympic 
wrestlers, judo specialists, and other mixed martial arts have 
a professional outlet for their athletic endeavors that barely 
existed 15 years ago. We pay the highest purses on the average 
in the industry, plus an opportunity to earn fight night 
bonuses. The UFC is first and the only promoter providing 
prefight accident insurance while they are training. Very, very 
important.
    Dozens upon dozens of mixed martial artists are 
millionaires because of these opportunities. They have 
capitalized on their successes by opening gyms, managing and 
training fighters, obtaining sponsorships, and even making 
movies.
    Women excel in the UFC because we have created one of the 
biggest platforms for female athletes in professional sports. 
Women competing in the UFC do so on the same terms as their 
male counterparts, on the same fight cards, under the same 
rules, and with the same earning opportunities.
    Some have argued that because boxing and MMA are both 
combat sports, both should be governed by the Ali Act. However, 
the two sports are entirely different, and the Ali Act should 
not cover MMA. Of principal concern is the application of Ali 
Act's sanctioning organization rules to MMA. MMA does not rely 
on sanctioning organizations, and Congress should not impose 
the boxing sanctioning organization model onto MMA.
    The UFC's fighters are ranked by sports reporters, and 
those rankings guide our merit-based competitive matchmaking 
decisions. We put on the fights that the fans want to see, and 
it is merit-based on competitive matchmaking decisions. Fighter 
fans and sports reporters keep MMA promoters accountable.
    H.R. 44 would remove from the promoter the decisions 
regarding when and against whom fighters are matched. It might 
force interpromotional fights. Because different promotions 
have less comprehensive health and safety standards than the 
UFC, our fighters would be endangered.
    Mr. Chairman, state regulation is working well. MMA is 
thriving because athletes and fans understand that it is a 
sport with high integrity. There is no need for Federal 
regulation, and I urge this subcommittee to be careful that it 
not hastily enact rules that make little sense for the sport. 
Thank you very much.
    [The prepared statement of Mr. Ratner follows:] 
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Latta. Thank you very much.
    Mr. Sirb, you are recognized for 5 minutes.

                     STATEMENT OF GREG SIRB

    Mr. Sirb. Chairman Latta and members of the committee, 
thank you very much for being here. My name is Greg Sirb. I 
served as the Executive Director of the Pennsylvania commission 
for the past 27 years. I have also served as the National 
President of the Association of Boxing Commissions and Combat 
Sports. I testified before Congress on multiple occasions 
concerning the Professional Boxing Safety Act of 1996 and the 
Ali Act of 2000. I will be always proud to say I was one of the 
architects at getting both of those bills passed, along with my 
good friend Senator John McCain.
    First, some background information. In 2016, we had about a 
thousand MMA fights in the United States, it is increasingly 
being popularized. The top states: California, Texas, Nevada, 
Ohio, Pennsylvania, and Florida. Currently, we have about 52 
state or tribal commissions that regulate these sports. 
Regulations can vary between state and state, particularly when 
we talk about the amateur MMA athlete.
    One of the driving forces when we first were here in 1996 
when we passed the Pro Boxing Safety Act, we had five sections 
we wanted to make sure we dealt with. I am going to go over 
those and see how they deal with MMA.
    One, under the current Federal law, no boxing can occur in 
a state that does not have a commission. Cannot occur. If the 
state does not have a commission, they can ask a neighboring 
state to come in or they can ask the ABC to supervise. That is 
not the case in MMA. It is not against Federal law to have an 
unregulated pro MMA fight.
    Two, safety procedures. Each boxer must have a physical 
exam before the fight, an ambulance must be present, a 
physician must be present. And health insurance must be 
provided to that boxer in case he is injured. That is in the 
Federal law. Although not mandated by the Federal law, many of 
the state and tribal commissions do this for MMA currently.
    Three we had as registration. The Federal Boxing Act 
requires all pro boxers to apply for a Federal ID card with 
their home state. This ID card has a photo of the fighter, the 
name of the fighter, the date of birth, Social Security number, 
and a unique six-digit number that tracks that fighter all over 
the world.
    In the MMA, the ABC has developed a national database for 
MMA fighters. This national registry is accessible to all state 
and Tribal commissions, and again, although not mandated by the 
Federal law, the Federal ID system is in effect for the MMA 
world.
    Four, suspensions. The current Federal law mandates that if 
you are a boxer and you have suffered a knockout or an injury 
and you are a placed on suspension, you cannot fight in any 
other state. That is Federal law. You cannot fight for a KO, a 
series of knockouts, a failed drug test, a failed alias that 
you are trying to falsify a documentation, or unsportsmanlike 
conduct. And although not mandated by Federal law, with the 
help of the ABC, the vast majority of the states with MMA 
uphold MMA suspensions and require that they uphold the 
suspensions in other states.
    Five, reporting. The Federal law requires you to report 
your boxing results and your suspensions within 48 hours after 
the event. The ABC has developed two national registries. We 
have one for boxing, and we have one for MMA. Again, although 
not mandated, all state and Tribal commissions have the results 
in by 48 hours with their suspensions.
    As you can see with the ABC and with the help of the many 
state and Tribal commissions we have, we have already 
implemented much of the Federal law for the MMA fighters. But 
what haven't we done? Generally, the MMA fighter, under Federal 
law, is not covered when he is dealing with his promoter or 
manager. He is not covered in that section, of course, of 
contract. He is not covered in that section of sanctioning 
bodies and rankings organization.
    As a boxer, I can go after that event. I am entitled to my 
contract. I am entitled to see and ask for disclosure of that 
promoter of the financial dealings with that promoter, how much 
did he make from the event, where that money is going, and what 
money is being assessed against me as a fighter. I have that 
authority as a boxer.
    Boxers are also entitled to the so-called firewall between 
a manager and a fighter; i.e., a manager cannot act as your 
promoter, and a promoter cannot act as your manager and take 
money from both. There is no double dipping. Boxers have that 
ability.
    Boxers are also protected under the Federal act from the 
so-called coercive contract. A coercive contract generally 
means under the Pro Boxing Safety Act, that I can't be forced 
to sign a contract or I cannot be forced to extend an existing 
contract if I want a particular fight. I can't be forced to do 
that. Coerciveness.
    The Federal law also states that the promoter of the event 
is obligated, under perjury, to sign forms and disclose to the 
state or Tribal commission where the event is to be held, all 
the financial dealings that he has with the fighter, all the 
money that he is bringing in, and all the money that he may be 
paying out. So a promoter can't----
    Mr. Latta. You need to wrap up. You need to wrap up.
    Mr. Sirb. Of those five things, let's be clear about the 
financial disclosure. Financial disclosure is a good thing.
    And I will leave you with this. Twenty-seven years I have 
been here. I am one of the longest serving state regulators in 
the country. I served many times with a fighter and a manager, 
sit down with them and their promoter, and we have to mediate 
his contract. One famous fighter told me just like this, he 
said: ``Sirb, if I don't know how big the financial pie is, how 
do I know what type of piece of the pie I should ask for?'' I 
will leave with you that.
    [The prepared statement of Mr. Sirb follows:]  
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Mr. Latta. Thank you very much.
    And, Dr. Dams-O'Connor, you are recognized for 5 minutes. 
Thank you.

        STATEMENT OF KRISTEN DAMS-O'CONNOR, M.A., PH.D.

    Ms. Dams-O'Connor. Thank you. I am Dr. Kristen Dams-
O'Connor. I am an Associate Professor of Rehabilitation 
Medicine and Neurology at the Icahn School of Medicine at Mount 
Sinai, where I am also the Director of the Brain Injury 
Research Center. The testimony I will provide today reflects my 
own professional opinion.
    My research focuses on understanding and improving long-
term outcomes associated with traumatic brain injury or TBI. 
TBI is defined as a traumatically induced physiological 
disruption of brain function that results in a period of 
unconsciousness or any alteration in mental state or 
neurological status.
    Not all traumatic brain injuries involve a loss of 
consciousness, and not all TBIs result from a direct blow to 
the head. A mild TBI is frequently referred to as a concussion. 
Most of my research pertains to individuals who have sustained 
a TBI that involves a loss of consciousness and requires 
hospital care. TBI affects more than 2.7 million people each 
year and causes more than 150 deaths each day in the United 
States.
    TBI is one of the strongest environmental risk factors for 
dementia. The potential consequences of TBI are not limited to 
dementia. Among people who receive in-patient rehabilitation 
for traumatic brain injury, about half within 5 years of injury 
have died or declined from a previous level of functioning. 
People who have sustained a TBI tend to have more medical 
comorbidities and a shortened lifespan of up to 9 years.
    These findings have led to the realization that TBI may be 
more appropriately conceptualized as a disease process as 
opposed to an isolated event. Milder TBI or concussion can 
cause symptoms like headaches, dizziness, cognitive or 
emotional changes, but these usually resolve within weeks.
    Some people who sustain a concussion experience persistent 
symptoms, especially those who sustain multiple concussions. 
Repeated exposure to sub-concussive head trauma, even in the 
absence of a clinical concussion, may be associated with long-
term consequences. Chronic traumatic encephalopathy, or CTE, is 
thought to be triggered by repeated exposure to sub-concussive 
head trauma and is diagnosed post-mortem as an abnormal 
accumulation of a protein called tau in the brain.
    Most of the recent research on CTE has been conducted in 
football players. Most of the research on sports-related TBI in 
general has been conducted on football players, male football 
players in particular. So it is not well-known how or whether 
these findings generalize to other contact sports, such as MMA, 
or to women.
    An important thing that distinguishes MMA from football is 
that many football players never sustain a true concussion 
whereas inflicting a TBI with loss of consciousness is 
essentially the goal of MMA. MMA also involves repeated 
exposure to sub-concussive head trauma throughout practice and 
competition, which essentially means that MMA fighters are at 
risk for both the long-term sequelae associated with traumatic 
brain injuries and also the long-term risks associated with 
sub-concussive head trauma exposure.
    It is no longer defensible to claim that traumatic brain 
injury is not associated with long-term health consequences. We 
know that earlier life exposure and greater cumulative exposure 
to head trauma is associated with worse outcomes. There is no 
amount of exposure to traumatic brain injury that can be 
considered safe, and there is no age at which a traumatic brain 
injury is considered safe.
    There is no biological marker to definitively determine 
when it is safe to return to sport after a traumatic brain 
injury. So the most conservative approach might be to ban 
participation in contact sports all together, but we know that 
there are tremendous benefits to kids and young adults who 
participate in sports, especially in this digital age. It is 
concerning to hear that sports participation among kids is 
declining. The benefits of sports participation cannot be 
replicated by technology.
    But this truth has to be considered alongside the knowledge 
that many traumatic brain injuries sustained in sport are 
preventable. So the most prudent way forward might be to make 
every effort to make contact sport participation safer. In MMA 
in particular exposure to head trauma can be substantially 
reduced by delaying the age of exposure to high-contact fights, 
limiting exposure to head contact, reducing the duration or 
number of competitions an athlete can participate in, or even 
penalizing athletes who deliberately inflict a blow to the head 
to an opponent.
    Our understanding of the long-term effects of TBI has 
advanced rapidly in recent years, and I really think that we 
owe it to the people and their families who are living with the 
sequelae of brain injury to only accelerate that pace of 
research.
    In science, we are interested in understanding the factors 
that may mitigate negative outcomes after a brain injury, and 
we hope that one day that science would allow us to predict 
individual level risk, but we are not there yet. As that 
knowledge accumulates, the short-term responsibility really 
lies in policy, the goal being to improve and enforce 
regulations that make sports safer for all athletes.
    These regulations must protect both the athletes that go on 
to experience these devastating outcomes as well as those who 
are lucky and don't have these outcomes because, right now, we 
have no way of determining who those lucky ones will be. When 
sports participation involves exposure to traumatic brain 
injury----
    Mr. Latta. Pardon me, Doctor. If you can just wrap up. 
Thank you. You are over. Thank you.
    Ms. Dams-O'Connor [continuing]. Every effort must be made 
to reduce the risk.
    [The prepared statement of Ms. Dams-O'Connor follows:] 
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Mr. Latta. Thank you very much.
    Mr. Couture, you are recognized for 5 minutes. Thank you 
very much.

                   STATEMENT OF RANDY COUTURE

    Mr. Couture. Thank you, Chairman Latta and Ranking Member 
Schakowsky, thank you. I am very pleased to be back for the 
legislative hearing for the Ali Act to be expanded to mixed 
martial arts. I want to address some of the major issues in the 
sport of MMA that I have come to love so much and, 
unfortunately, some of the business behind the scenes that I 
have come to hate.
    I know the majority of the memorandum has done a pretty 
good job of providing a cursory description of some of the 
history of modern MMA. However, there is just a bit I would 
like to add. It involves world-class athletes, Olympic athletes 
involved in disciplines of martial arts, including, wrestling, 
judo, jiu-jitsu, Muay Thai, karate, and boxing.
    The UFC is the operating trade name of the Zuffa, LLC. Over 
90 percent of the revenue generated in the sport of MMA is 
captured by Zuffa. Zuffa is still the only promoter in MMA that 
is regularly broadcasting on pay-per-view, where a substantial 
amount of the event's income is obtained. The UFC also promotes 
approximately 24 additional events through FOX family of 
networks on its own streaming service, the UFC FIGHT PASS. And 
the UFC has over 520 fighters on its roster right now under 
contract.
    Once signed to a Zuffa promotional agreement, Zuffa retains 
sweeping ancillary rights to utilize the athlete's likeness in 
perpetuity for all commercial purposes. The roster churns. As 
fighters are released, injured, or retire, new fighters are 
signed worldwide. There are thousands of professional mixed 
martial artists.
    Coercive contractual practices crippling the natural growth 
of MMA include but are not limited to: the use of exclusive 
nonpublic contracts; the assignment of ancillary rights from 
the athlete to the promoter far beyond the term of the 
promotional agreement; champions clauses that prevent champions 
from ever becoming freely marketable; secret discretionary 
payments that are utilized to keep athletes subservient and 
silent.
    For 2015, Zuffa reported an annual revenue in excess of 
$600 million, with over 63 percent of that revenue from 
regulated events, pay-per-view, and gate. Zuffa has also 
entered into lucrative TV licensing deals, including a 7-year, 
$832 million with FOX Networks and a 5-year, $232 million deal 
for broadcast rights in Brazil. Zuffa also has ownership stakes 
in a variety of other business, including apparel, equipment, 
energy drinks and gyms, the UFC magazine, the UFC Fan Expo, UFC 
FIGHT PASS, which is the streaming service, and UFC.com, which 
is the website and online store.
    Zuffa has a partnership and arrangements with numerous 
media companies. Zuffa controls the likeness rights of its 
athletes for merchandizing purposes and has the only MMA video 
game franchise in partnership with EA Sports. I know this 
because I was previously in EA's video game before it became a 
UFC property.
    By now, as most will know, Zuffa sold last year to WME-IMG 
for a reported $4 billion in the single largest sports property 
in the history of sports. Although the purchase price is 
astounding, given the requisite percentage revenue share with 
the athletes, I can say, based upon my recent experience, that 
things seem to have gotten worse for fighters, not better, in 
fact, may have worsened. In particular, what I understand, the 
debt load associated with this purchase is probably three times 
the previous debt load. To that point, Goldman Sachs, the lead 
banker in the sale, has been twice warned by the Federal 
regulators that over-optimism in the projections of future 
income were far too speculative. Translation to fighters: None 
of that enormous purchase price will translate to your pocket, 
as the company now carries far more debt load and managers 
scramble to create new revenue.
    Competitive architecture in the sport of MMA. In sport, 
competition is a result of competition and determines merit. 
Unlike boxing, however, there is no competitive architecture. 
For an MMA amateur, programs are largely nonexistent and 
unorganized.
    MMA is also not an Olympic sport. Thus, athletes entering 
into MMA do not have the built-in pedigree that boxers 
typically enjoy due to longstanding amateur programs and 
Olympic competition which serves to filter test talent before 
they turn professional. In MMA, outside of the NCAA Division I 
wrestling and Olympic wrestlers, athletes turn professional in 
MMA and have not been systematically ranked at any level. In 
contrast, amateur boxers and wrestlers establish credentials 
and merit in athletics through competition, ascending rankings.
    Merit is essential to all combative sports. Athletes, 
through competition, ascend rankings and establish notoriety 
with the viewing public. In combat sports, value to athletes 
competing is obtained by sending those rankings through 
competition and later winning titles. Once notoriety has been 
obtained, the professional boxer or kickboxer may then enter 
into the marketplace for competing promotions where they can 
bid for his services or the athlete may choose to promote 
himself and hire a third party on a contract basis. These 
athletes retain rank and title that they have already obtained, 
which are independent of the promotion.
    In contrast, MMA athletes do not have an organized and 
respected amateur system to establish merit. Unlike boxing and 
kickboxing, MMA promoters do not have and have not been 
required by the athletic commissions to utilize independent or 
objective ranking.
    Mr. Latta. Pardon me, Mr. Couture, if you could wrap up 
your statement. Thank you.
    Mr. Couture. Lots more to say. But I am here representing 
the MMA FA members of over 600 strong, so hardly an 
insignificant amount of fighters that want to see this changed.
    [The prepared statement of Mr. Couture follows:] 
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
       
    Mr. Latta. Well, thank you very much for your statements. 
And at this time, we will move to the question and answers from 
our members.
    And I will begin by recognizing myself for 5 minutes.
    And, Mr. Sirb, if I could start with you. As an official of 
the Pennsylvania state Athletic Commission, can you explain the 
authority the Commonwealth of Pennsylvania has to implement 
rules like those for contractual provisions in H.R. 44?
    Mr. Sirb. Currently in Pennsylvania----
    Mr. Latta. Is your mike on?
    Mr. Sirb. Currently, in Pennsylvania, we treat the boxer 
exactly the same as the MMA fighter. Every aspect of the Ali 
Act is implemented for the MMA fighter. We oversee the 
contract. It must be on our form. It can't exceed 3 years. And 
any situations that come up, they come to the commission first 
by state law for an arbitration process. If they don't like 
what we arbitrated, then it goes to Commonwealth court.
    Mr. Latta. Thank you very much.
    Mr. Ratner, you have had a great deal of experience with 
both boxing and the MMA, what are the differences in those 
sports and how they are regulated, and why do those differences 
exist?
    Mr. Ratner. From the commission side, as Mr. Sirb just 
said, it is handled exactly the same way. I can speak for the 
State of Nevada completely. Boxers and MMA fighters are treated 
exactly the same. Surprisingly, the only thing that is 
different is the rules of the sports. But everything is the 
same. Whether contracts, they can be arbitrated by the 
commission.
    But I do want to say about the Ali Act--and I was there in 
1996 with Mr. Sirb before Senator McCain and Senator Richard 
Bryan, and to the best of my knowledge, and maybe I am wrong, 
but there has not been one case that has gone to the United 
States Attorney General in any state with the Ali Act. For some 
reason, it has never been there. And I don't think it works in 
boxing, and it certainly will not work in the sport of MMA.
    Mr. Latta. Thank you very much.
    Mr. Couture, you have been a passionate advocate for 
changes and how the MMA is regulated. If these changes would 
have been in effect when you were fighting, how do you think it 
would have impacted your successful career?
    Mr. Couture. I think, with the transparency that the Ali 
Act provides boxers, I would have known what my fair market 
value was in the sport, and I would have been free to go and 
pursue--for me, a perfect example was the Fedor Emelianenko 
fight in 2006: Fedor was fighting for a different organization 
under a contract with them; I was under contract with the UFC. 
I wasn't allowed to go and pursue that fight. Most people 
thought he was the best fighter in the world and I was number 
two. The only way to really settle that, and that is in the 
cage. And I was not allowed to do that because of my exclusive 
contract with the UFC. I couldn't pursue that outside of them, 
and they couldn't make a deal with Fedor and do a copromotion 
with his organization.
    So I think this is one of the things that the act clears 
up, allows for free market, and allows me to know my fair value 
in the marketplace.
    Mr. Latta. Thank you very much.
    Mr. Sirb, do you believe that the way the MMA fights are 
regulated in the U.S. creates as safe an environment as 
possible for the competitors, understanding the sport of course 
is very much a contact sport?
    Mr. Sirb. I do. Again, we are only talking about the 
professional fighters. The MMA, unlike boxing, has a whole slew 
of amateur MMA fighters, 14, 13, 12 years old, 14, teenagers. 
That is very unregulated in some states. That is a big issue.
    This Ali Act only covers, though, the pro fighters. But for 
the pro MMA fighters for health and safety, yes, they are 
protected fairly well under current regulations.
    Mr. Latta. Thank you very much. Just to let you know, with 
our lights up there and the bells, they just called votes, and 
we have about 13 minutes left. Would the gentlelady like to go 
ahead and ask her questions, and we will take a brief recess 
and come right back.
    Ms. Schakowsky. Actually, because I can come back, I am 
going to yield to Ben Ray Lujan to ask questions.
    Mr. Latta. The gentleman is recognized.
    Mr. Lujan. Thank you, Mr. Chairman.
    Thank you, Ms. Schakowsky.
    Mr. Couture, first off, I want to thank Mr. Markwayne 
Mullin for leading this effort, and Mr. Kennedy as well. This 
is important. As we are having a conversation about folks that 
want to put themselves through the training and through the 
rigors of being in that ring, that ultimately led to a $4 
billion industry; that is the premise of I think why we are 
here. And what can be done in a way to make sure that we can 
understand how to put what those fighters are going through 
every day and front and center, if you will, in the middle of 
what is happening across the country.
    So, looking at this, as we talk about economic 
independence, does the Ali Act make it harder for the same 
person or organization to serve both as a boxer's manager and 
their promoter, and why do MMA fighters need the same 
protections?
    Mr. Couture. I believe that MMA fighters need the same 
protection. I think the biggest issue is that combative sport 
should be based on merit. And to have a promoter also create 
his own title and his own rankings and then hold the athlete's 
feet to the fire and force him to sign a contract if he wants 
to be ranked and he wants to fight for those titles and gain 
that notoriety, it is too much power. It needs to be separated.
    Somebody else independent of wanting to promote and make 
money off that fighter should be setting those rankings and 
creating those titles. That is my opinion.
    Health and well-being of the fighters, I am perfectly 
comfortable with how the athletic commissions and ABC regulate 
us. The CT scans, the blood work, all the other things that I 
do to make sure--I know the risks; I still love the sport.
    The real issue is on the business side of things. I am not 
told or allowed to know what I am worth. And I get to negotiate 
for my fair share of any event that I compete in. A recent 
example, Conor McGregor gets a boxing license, and he goes out 
and makes $80 million or $90 million. That is ten times he has 
ever made in a mixed martial arts fight--ten times what he ever 
made in a mixed martial arts fight. And he is one of the 
highest mixed martial arts fighters, what he is paid. And it 
goes down drastically from there.
    The mid-tier and lower tier fighters are struggling; they 
can't fight enough times in a year to make a decent living. 
Now, they are forced to fight four or five or six times in a 
year. It takes 10 weeks to train for one fight. That is 40 
weeks that he is in hardcore training, putting his body at 
risk, in order to continue to make a living in the sport that 
he loves.
    Mr. Lujan. I appreciate that. I have seen some of those 
boxers train at Jackson's Gym in Albuquerque, New Mexico, I 
certainly appreciate the work that goes into that. I sweat just 
watching them, sir, so there is nothing that I could do to ever 
be prepared fully, but I appreciate that.
    So my question, Mr. Ratner, goes I guess to this point. Is 
disclosure and voluntary guidelines enough to protect fighters' 
interest, or do fighters need a fully independent sanctioning 
authority that has the ability to enforce rules as we look at 
these rankings?
    Mr. Ratner. First of all, in your first statement, I want 
everybody to know that we are not a manager; we are a promoter. 
When a fighter comes to fight for us, they bring attorneys, 
they bring managers, they bring agencies.
    Mr. Lujan. Mr. Ratner, if I may, because my time is going 
to run out here, specifically to disclosure and voluntary 
guidelines, is that enough to protect the fighters' interests, 
or do fighters need a fully independent sanctioning authority 
that has the ability to enforce the rules as we talk about the 
importance of the ranking and things of that nature?
    Mr. Ratner. When they fight for us, the gate is public 
knowledge; they know exactly how much was paid by the people 
who watched the fights. The ones who fight on pay-per-view are 
really their partners. They have the right to audit the pay-
per-view numbers. So they are really part of our whole 
business. No fighter fights for us for less than $10,000 for 
them to show up. If they win, they get another $10,000.
    Mr. Couture brought up the Mayweather fight with Conor 
McGregor. On that fight card, there were five boxers who were 
paid under $7,500. So that is a boxing--whether it is right or 
wrong. I am saying that nobody gets paid less than $10,000, and 
we do the right thing by the fighters.
    Mr. Lujan. Thank you.
    Mr. Chairman, as my time expires, again, just--it just sold 
for $4 billion. We talk about the earnings of these fighters 
and even the autonomy for them to go and find independent 
sponsors as well when they are tied to contracts. It just 
doesn't allow them to maximize their earnings. And I think, as 
you look at what they are required to fight for all year long 
versus the few fights then that ultimately have that payday, 
that there should be some flexibility there, and I am hoping 
that I can better understand this as well so we can maximize 
those earnings for these folks that do incredible work. Thank 
you very much, sir.
    Mr. Latta. The gentleman's time has expired.
    And at this time, we will take a brief 15-minute recess, 
and we will go vote and come right back. So we appreciate your 
testimony so far, and like I said, we will be back in 15 
minutes.
    [Recess.]
    Mr. Latta. I call the subcommittee to order from our brief 
recess, and at this time, I will recognize the gentleman from 
Oklahoma for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here.
    Mr. Ratner, you made a statement that you said boxers and 
MMA fighters are treated the same.
    Mr. Ratner. By commissions, yes.
    Mr. Mullin. So is the ranking system the same?
    Mr. Ratner. First of all, I am a regulator.
    Mr. Mullin. I know, but if you are saying they are treated 
the same, that is an awful broad statement. Is the ranking 
system the same?
    Mr. Ratner. Well, I am saying from a regulatory point of 
view, from a commission point of view----
    Mr. Mullin. Well, you are talking about the safety of the 
fighter. We are talking about the ranking, and the Ali Act 
doesn't deal with the safety of it. It deals with the financial 
disclosures of it.
    So, when you make that broad statement, let's be narrow, 
because this is a hearing on the legislation, on H.R. 44. That 
is what this is about. We are not talking about the safety, 
which is important, we are talking about what the Ali Act does 
and doesn't.
    So, when you say that a boxer and an MMA fighter is treated 
the same, is the ranking system the same? Yes or no.
    Mr. Ratner. The ranking systems in boxing are completely 
different.
    Mr. Mullin. So what criteria does the MMA use for the 
ranking system? The UFC specifically.
    Mr. Ratner. The UFC, there is a group of sports writers, I 
am not sure how many, and they are the ones.
    Mr. Mullin. Do they serve at the will of the UFC?
    Mr. Ratner. No, they are independent.
    Mr. Mullin. They serve at will. The UFC reserves the right 
to remove anybody off that commission that they choose.
    Mr. Ratner. I cannot answer that.
    Mr. Mullin. It is true. The answer to that is true.
    Mr. Ratner. I do not know that, but there is a group of 
them, it is 18 or 20, something like that, and they rank the 
fighters----
    Mr. Mullin. What criteria do they use to rank the fighters?
    Mr. Ratner. As I said, I am in the regulatory part of it. I 
am not in that part of it, and I cannot answer that.
    Mr. Mullin. But you did refer to it, in your opening 
statement referred to the ranking system. So, if you referred 
to it in your opening statement, then let's be clear on a 
couple things.
    How do they choose who is going to fight for a title?
    Mr. Ratner. How does the UFC?
    Mr. Mullin. Yes.
    Mr. Ratner. On a competitive basis. We make the fight that 
fans want to see.
    Mr. Mullin. I have no objections to that. I want that, but 
when you are talking about a world title, as a professional 
fighter, I want to know that I am the best, if I am fighting, 
and that is the whole point. As Randy said, he wants to fight 
the best.
    So how do you know you get to fight the best? It has 
nothing to do with matchmaking. The Mayweather/McGregor fight 
was not for a title. The fans wanted to see it, Correct?
    Mr. Ratner. Correct.
    Mr. Mullin. But when you have a title out there that the 
UFC shows as a world title, do you consider that the world 
title?
    Mr. Ratner. Last Saturday night, we had three world titles.
    Mr. Mullin. World titles. So, when Lawrence Epstein came 
and talked to be me and he said that they don't look at the 
title as being a title but as an award bestowed upon the best 
fighter that night, would you agree with that statement?
    Mr. Ratner. I do. Just going back to Saturday night----
    Mr. Mullin. So then it is not really a world title.
    Mr. Ratner. It is a world title as far as we are concerned.
    Mr. Mullin. Not if you are considering it an award bestowed 
upon the best fighter. It can't be. When you have the last 
three fights, the 185 pound, as I said in my opening statement, 
when Luke fought Bisping, Bisping was ranked number four. Did 
number three, number two, and the number one contender, did 
they refuse the fight like in the boxing world they do?
    Mr. Ratner. Well, in the boxing world, what you have there 
is step-aside, and there are all kinds of games played.
    Mr. Mullin. OK. But did they? Did the number three, two, 
and the number one contender have an opportunity to fight, or 
did they go straight to Bisping?
    Mr. Ratner. I am going to make it clear again: I am not 
involved in that part of it.
    Mr. Mullin. But you said in the opening statement that the 
fighters in the MMA and boxers are treated the same.
    Mr. Ratner. Absolutely.
    Mr. Mullin. They are not when you are talking about the 
ranking system.
    Mr. Ratner. I am talking about state commissions.
    Mr. Mullin. State commissions when you are talking about 
the safety and regulating the safety but not the true ranking 
system.
    If the UFC is considered a professional sport, then it 
should be on a merit-based ranking system, when the fans know 
that the number one contender actually has a shot at the title, 
because we haven't seen that at 185. How did Dan Henderson--
which I like Dan; this is no knocking him. But he wasn't even 
in the top 10, and when was the last time he was in the top 10? 
He got to fight Bisping for the title shot. Did nine, eight, 
seven, six, five, four, three, two, and one all refuse?
    Mr. Ratner. When Dan Henderson fought Michael Bisping, it 
was a natural rematch from a fight maybe four or----
    Mr. Mullin. But then it wasn't a title shot, but yet it was 
for a title shot. Then that means the world championship belt 
that the UFC has isn't really a world championship belt. It is 
really what Lawrence Epstein personally told me. It is simply 
an award that they bestow on the best fighter that night. That 
is insulting to every professional athlete.
    How did GSP get a fight for the title when he hasn't had a 
fight in 4 years, much less at 185 pounds? He never fought for 
the belt.
    Mr. Ratner. St-Pierre hadn't fought in 4 years; you are 
absolutely correct.
    Mr. Mullin. So how did he get a title shot?
    Mr. Ratner. He was a former champion, former pound-for-
pound the best fighter in the world, according to our----
    Mr. Mullin. So he still didn't fight for a title. He fought 
for an award bestowed upon the best fighter that night.
    When you go back and you say--and I am wrapping up, 
Chairman--when you go back and you say that boxers are treated 
like MMA fighters, clarify that statement that you are talking 
about the health of the fighter but not the professional 
ranking system and not about the financial disclosures, because 
there are distinct differences. The Ali Act is the backstop to 
boxers. There is no backstop for MMA fighters. It is take it or 
leave it, and that is what I say the UFC has become the Don 
King of MMA.
    I yield back.
    Mr. Latta. The gentleman's time has expired.
    And the chair now recognizes the gentlelady from Illinois, 
the ranking member of the subcommittee.
    Ms. Schakowsky. I am going to yield to Congressman Kennedy, 
a cosponsor of this bill.
    Mr. Kennedy. Thank you. I appreciate that, ranking member.
    I appreciate that, Mr. Chairman. Thank you for calling this 
hearing.
    The witnesses, thank you for being here.
    Mr. Mullin, if you wanted to finish that round of 
questioning off, I am happen to yield to you a minute, as long 
as, Jan, you are OK with that.
    Ms. Schakowsky. I am fine.
    Mr. Mullin. Go ahead, Joe, and I will jump in when you are 
done.
    Mr. Kennedy. I appreciate the witnesses here today, as I 
said.
    A number of topics that I think have come to light over the 
course of this hearing, which I think we do need to dive it 
down a bit more.
    Obviously, I share some of the concerns that you heard from 
Ms. Schakowsky around safety and security of our fighters. I 
understand, Mr. Couture, your perspective that there is an 
assumption of risk here, that you have an idea of what you are 
getting into, and I appreciate that.
    That being said, I think, Doctor, some of the research that 
you were able to articulate, this is an issue we are seeing 
across multiple professional sports at this point where there 
are long-term safety effects that we also want to make sure 
that people are going in with eyes wide hope. I appreciate that 
as well.
    I also wanted to call attention to an op-ed I believe in 
today's Washington Examiner by an additional fighter, Mr. 
Fitch, who echoed some of the points made by Mr. Couture and by 
Mr. Mullin. He states in part over his career that, at one 
point, following a defeat to Mr. St-Pierre, that he was 
presented with a merchandising agreement, quoting from a letter 
that is now in the record: ``So I was presented with a 
merchandizing agreement by the promotion which required me to 
grant them in perpetuity and for no compensation the right to 
my image for use in a video game.''
    He cites later that he was requested at one point to sign 
over all rights, including after death.
    Mr. Couture, is Mr. Fitch's experience with that similar to 
circumstances that you have been going through, and is that 
emblematic of some of the interactions with other fighters as 
well?
    Mr. Couture. Yes, sir. It is. I have fought with the 
organization from the day they bought the company. When Zuffa 
bought the UFC from SEG, the old company that owned the 
property, I was the heavyweight champion at the time. I was due 
to sign a new contract, and my management basically fought for 
those ancillary rights, and it is because of that fight over 
those ancillary rights, my name and likeness and all these 
other categories that have nothing to do with the actual fight, 
I am persona non grata with the company to this day.
    Mr. Kennedy. Mr. Mullin.
    Mr. Mullin. Thank you, Joe.
    Mr. Ratner, a followup question: Did the UFC strip Conor 
McGregor of his featherweight title and drop him from the 
rankings, despite he had never lost the title in competition?
    Mr. Ratner. He wasn't active in I believe the 145. He went 
up to 155, and, yes, they took the title away.
    Mr. Mullin. And they stripped him out of the rankings of 
the top 10, despite he had never lost at 145?
    Mr. Ratner. I believe so.
    Mr. Mullin. Would that happen in boxing?
    Mr. Ratner. I think it has happened in boxing.
    Mr. Mullin. When they are inactive for how long?
    Mr. Ratner. That I cannot say, but I know----
    Mr. Mullin. Isn't it based on them passing fights, refusing 
to fight for the title, and isn't it based on criteria before 
they can just simply drop the title?
    Mr. Ratner. In boxing, there must be maybe 10 to 12 world 
sanctioning bodies, and they all have their own criteria, they 
all have different rankings.
    Mr. Mullin. But I am talking underneath the Ali Act, 
because you were a proponent for the Ali Act when it was coming 
out in boxing, you were a strong proponent for it because you 
saw the need for the boxers, for the fighters, and a lot of it 
was the manipulation that was going on in boxing. Is that 
correct?
    Mr. Ratner. Yes, 20 years ago, I----
    Mr. Mullin. And you don't see any similarities right now on 
the manipulation the way they do it?
    Mr. Ratner. No. I don't.
    Mr. Mullin. What about Nate Diaz who was dropped from the 
UFC because he was involved in contract negotiations and he was 
trying to negotiate with the UFC and they dropped him? Is that 
not true?
    Mr. Ratner. I don't pay attention to the rankings, but----
    Mr. Mullin. Sir, you are involved in it all the time. Was 
he not dropped from the UFC?
    Mr. Ratner. He is still under contract to us and----
    Mr. Mullin. I am talking about at the time.
    Mr. Ratner. I am sure you will see him fight again.
    Mr. Mullin. I know that, but the answer to that is yes, and 
we go back to the same thing. When you were saying that boxers 
are treated the same way, or MMA fighters are treated the same 
way as boxers, what I am trying to draw here is they are not 
even close. You make a broad statement like that; you are 
misleading Congress.
    Mr. Ratner. Not at all.
    Mr. Mullin. And you are misleading the American people. 
When you make those statements, clarify specifically on what it 
is you are talking about because, once again, you are talking 
about the health of the fighter. The Ali Act deals with the 
financial compensation of the fighter. It also deals with the 
merit-based ranking system.
    I yield back.
    Mr. Latta. Thank you very much.
    The gentleman from Massachusetts' time has expired.
    And the chair now recognizes the gentleman from Indiana for 
5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    I was a surgeon before I came to Congress, so actually this 
situation really does interest me quite a bit because of the 
medical aspects of what we are talking about here today. And I 
think, as you mentioned, adults understand what the risks are, 
and they participate based on the known risk.
    It seems to me, though, one of the things when you are 
balancing risk/benefits, is you have to also be able to assess 
what your financial goals might be. Would you agree with that? 
If you are going to fight and assess the risk as a professional 
fighter, one of the considerations is on how many times you 
fight and for how long you fight is what your financial future 
might hold for you. Would you agree or disagree with that?
    Mr. Couture. I would absolutely agree with that. Mr. Sirb 
mentioned if I know how big the pie is for a specific event 
that I am training for and going to compete in, then I have a 
fair opportunity, if I am unrestricted, to negotiate for my 
fair share of that pie, and that is less pies down the road 
that I have to get involved in which put my health and well-
being at the----
    Mr. Bucshon. Right. If you are essentially, as you 
mentioned, you have to fight six times a year to meet some 
financial goals, and you may or may not meet those----
    Mr. Couture. To use Mr. Ratner's----
    Mr. Bucshon. It is more exposure potentially to the health 
risk.
    Mr. Couture. To use Mr. Ratner's assumption that at least 
every fighter minimally gets $10,000 to show up and $10,000 if 
he wins, even at that rate, that is $20,000, take out my 
training expenses and all the other expenses I have as an 
athlete, I am going to at least have to fight four, five, six 
times a year to make a reasonable living by today's standards.
    Mr. Bucshon. Do you get charged for the other expenses? For 
example, an entertainer that goes on tour, right, their 
contracts usually have whatever it takes to set up the stage 
and to take down the stage and have the people run the lights 
and all that. I am just curious, are fighters--is there a fee--
--
    Mr. Couture. Fighters' expenses are dealing with his 
preparation, his trainers, his gym, food, supplementation, 
insurance of any kind.
    Mr. Bucshon. Travel to and from the fight?
    Mr. Couture. Travel is usually taken care of.
    Mr. Bucshon. That is usually covered. OK. I am just trying 
to clarify the financial structure here.
    Mr. Couture. As far as venues and setup and promotions for 
displaying the actual competition, that is up to the promoter.
    Mr. Bucshon. Is there a way a fighter can understand what 
the financial results are of an event? Is there transparency 
there for a fighter?
    Mr. Couture. There is no transparency in place now in mixed 
martial arts. They don't have to disclose any of that 
information, and you can find it on public record if you have 
the wherewithal to go look it up.
    Mr. Bucshon. OK.
    Mr. Ratner, how do you determine how much to pay fighters?
    Mr. Ratner. As I stated, they have to sign a contract to 
fight for us. Most of those contracts are 2 to 3 years. So when 
they come in----
    Mr. Bucshon. In the contract, does it talk about financial 
compensation or just----
    Mr. Ratner. Yes. So, for a brand new fighter, maybe the 
first three fights of his career, they are paid $10,000. You 
win those three fights; then they are paid another amount. It 
goes in steps.
    Mr. Bucshon. At any point in those contracts, is there 
revenue sharing at all, or is it just a flat fee?
    Mr. Ratner. For a beginning fighter, no. They are signing--
--
    Mr. Bucshon. Which is consistent with maybe the 
entertainment industry and other things. I totally understand 
that. Right.
    Mr. Ratner. You asked about some of the other costs. The 
UFC picks up all those costs. When we have a fight, we bring 
them in on Tuesday, not on Friday or Saturday. We weigh them to 
start with.
    And I just want to say again that I am for the fighters. I 
am for the health and safety part. That is my most important 
part.
    Mr. Bucshon. I think when you assess risk/benefit of 
participating in a sport, the financial aspects of it are an 
important part that you have to assess, right? And professional 
athletes will tell you that, and they know the risks, but if 
you are going to make $10 million for a fight, well----
    Mr. Ratner. But nobody forces----
    Mr. Bucshon. Mr. Sirb, I have got a few minutes here. You 
mentioned in your written testimony, there had been no legal 
cases brought to trial under the original Ali Act. Why is that?
    Mr. Sirb. Correct. The Ali Act has been very hard to 
enforce. We at the national association have written to 
numerous state attorneys general who have the authority to 
enforce the act. We have never got any cooperation from any of 
them.
    Mr. Bucshon. OK. Thank you. My time has expired.
    Mr. Latta. The gentleman's time has expired.
    The chair again recognizes the gentlelady from Illinois, 
the ranking member of the subcommittee.
    Ms. Schakowsky. I am going to yield my time to Mr. Pallone.
    Mr. Latta. The gentleman is recognized.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Mr. Ratner some questions about sports 
betting and as it relates to MMA, to some extent, in Nevada.
    Legal sports betting is supported by a majority of 
Americans, but outdated Federal law still prevents states that 
want to legalize it from doing so.
    My bill, which I mentioned, the GAME Act, would modernize 
Federal law and allow states to legalize sports betting as long 
as strong safeguards that protect consumers and the integrity 
of the game are in place.
    UFC is headquartered in Las Vegas, the center of legalized 
sports betting in the U.S. So I just wanted to ask you a couple 
questions, Mr. Ratner.
    UFC operates all over the world. Is betting on UFC fights 
legal in other countries, to your knowledge?
    Mr. Ratner. I know offshore there is betting everywhere. In 
Nevada, all our fights are put on what they call the board. You 
can bet on from the first fight through the last.
    And I just want to say, personally, not for the UFC, but I 
am in favor of sports betting around the world, around the 
country especially.
    Mr. Pallone. Thank you.
    What does UFC do to ensure integrity and transparency in 
MMA matches?
    Mr. Ratner. They make the bets competitive, is really what 
the words we use. Very seldom do you see a fight that odds-wise 
is 10 to 1, or 15 to 1, or 20 to 1. They are all pretty close.
    And, yes, there is betting, and we don't encourage fighters 
to go in there to the sports book. We certainly don't want them 
betting against themselves. That would be certainly illegal. 
But, yes, I see nothing wrong with it. I saw Evander Holyfield 
fight Mike Tyson, and his whole camp bet on him, and they got 
big odds, and they walked away happen.
    Mr. Pallone. In your experience, has the availability of 
sports betting affected fans' interest and engagement in UFC 
fights?
    Mr. Ratner. Absolutely, it really is meaningful and you see 
in all our broadcasts that fighter A is a 2-to-1 favorite over 
fighter B, and people bet.
    Mr. Pallone. Now, you were previously the executive 
director of the Nevada state Athletic Commission, and since you 
have joined UFC, you have helped UFC get licensed to operate in 
Nevada and other states.
    Is UFC subject to any state regulation in the U.S. that 
helps ensure integrity and transparency when it comes to sports 
betting?
    Mr. Ratner. Well, the only state that has sports betting is 
Nevada right now, I think that if your legislation goes 
through. But I work strictly with the athletic commissions, and 
whatever rules they have--each state is a little bit 
different--we adhere to. We run to regulation. It is very 
important to us, but when it comes to sports betting outside 
the state of Nevada, I cannot answer that.
    Mr. Pallone. Now, what would happen if there was an 
allegation of unfair play or match fixing? Does the UFC have a 
process in place to respond to those allegations if there were 
such an allegation of unfair play or match fixing?
    Mr. Ratner. Well, we have a whole legal team. There has 
never been a case of match fixing in the UFC, but we would 
address it, absolutely.
    Mr. Pallone. OK. And even in states that haven't legalized 
sports betting, people are still wagering illegally on UFC 
fights and other sporting events, correct?
    Mr. Ratner. Well, I know there is offshore betting. I do 
know that. I don't know if it is illegal to go on the internet 
and bet on it. I cannot answer that directly, but we are 
certainly aware of it.
    Mr. Pallone. All right. Now sports betting in Nevada has 
been legal for decades, and the state has comprehensive 
regulations in place to govern and tax sports betting. So, Mr. 
Ratner, does legalizing sports betting and bringing it into the 
sunshine you think help sports leagues that are trying to 
protect the integrity of their games?
    Mr. Ratner. Yes. I think that it is very, very important. 
In the state of Nevada, the sports books uncovered a basketball 
point shaving, just because, all of a sudden, all the money 
went on a different team, and they knew something was wrong. So 
I think it is very important for the integrity of all sports.
    Mr. Pallone. How would legalizing sports betting in states 
other than Nevada affect UFC's efforts to ensure integrity in 
MMA fights, do you think?
    Mr. Ratner. I think it would be the same as Nevada. 
Wherever they would want to have it, we welcome it, and I think 
it would be a boon to the different states.
    Mr. Pallone. All right. My last question is does the UFC 
support the expansion of legalized sports betting to other 
states in the U.S. as long as strong safeguards to protect 
consumers and ensure the integrity of the sport were in place?
    I guess you gave me your opinion, but does that reflect the 
UFC, or just your own personal----
    Mr. Ratner. That is my opinion. We have new owners, and I 
don't want to say something that may be misinterpreted. But as 
far as I am concerned, I am completely for it nationwide.
    Mr. Pallone. All right. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much.
    And the chair recognizes the gentlelady from Illinois, the 
ranking member of the subcommittee for 5 minutes.
    Ms. Schakowsky. Thank you. At our 2016 hearing on mixed 
martial arts, we heard from the Association of Boxing 
Commissions and Combat Sports, the National Organization of 
State Regulators, that the association has generally, ``taken a 
position against youth participation.'' But youth interest in 
MMA is growing, and the UFC offers MMA classifies and boot 
camps for children as young as 6 years old.
    Dr. Dams-O'Connor, kids' and teens' brains are still 
developing. Can concussions and other forms of traumatic brain 
jury cause more damage and last longer in kids and teens than 
adults?
    Ms. Dams-O'Connor. So this is definitely an evolving area 
of research. A recent study actually found that exposure to 
head trauma through contact sports incurred greater risks for 
people who were exposed before the age of 12, a somewhat 
arbitrary cut point. But in general, the probably conventional 
logic amongst researchers is that earlier exposure is 
associated with worse outcomes.
    Ms. Schakowsky. Does suffering a traumatic brain injury 
when you are young make you more vulnerable, is there research 
on this, to additional brain injuries in the future?
    Ms. Dams-O'Connor. Yes. So one of the greatest population 
level risk factors for sustaining a subsequent traumatic brain 
injury is having sustained a previous traumatic brain injury. 
So yes.
    Ms. Schakowsky. Are you concerned that 6-year-olds are 
participating in MMA?
    Ms. Dams-O'Connor. It depends on the extent to which 
proactive measures are being taken to ensure the safety of 
those kids, to the extent that kids are being taught to fall 
safely, to limit or prevent head trauma exposure.
    Again, I think that the benefits of sports participation 
need to be weighed against those risks, but it is a pretty 
young age, and it certainly raises some increased concerns.
    Ms. Schakowsky. So are there any precautions that could 
ease your concerns if they were put into place?
    Ms. Dams-O'Connor. I think that, at that age, the most 
prudent approach would be extreme caution in terms of actually 
limiting and penalizing any head trauma exposure in the 
youngest athletes.
    Ms. Schakowsky. Isn't that what is kind of central to the 
sport?
    Ms. Dams-O'Connor. Essentially, but I think that there is a 
lot about martial arts, including MMA, that has to do with 
athletic development, with physical development, with life 
lessons. So a lot of that would ideally be preserved. In the 
youngest athletes, however--again, there is no safe age at 
which sustaining a TBI--it is not safe at any age. In the 
youngest athletes, it is particularly unsafe. I think long ago, 
it was thought that, because of neuroplasticity, younger people 
recovered better after a brain injury, but we now know that 
that is not the case. In fact, the developing brain is most 
vulnerable to long-term effects of brain injury.
    Ms. Schakowsky. In a 2016 study, researchers found that a 
third of MMA fights end in a knockout. I want to talk a bit 
about knockouts or a technical knockout. In fact, UFC fighters 
can earn bonuses of $25,000 to $50,000 if they win a fight with 
a knockout or technical knockout.
    A technical knockout occurs when the referee decides a 
fighter cannot safely continue, while a knockout is the loss of 
consciousness.
    So we have heard from experts that the greatest risk factor 
for TBI is a previous TBI. I just wanted to get to the issue of 
knockouts.
    In your view, are fighters who have previously been knocked 
out more susceptible to being knocked out again in subsequent 
fights?
    Ms. Dams-O'Connor. I think the reach would support that 
notion that someone who has previously sustained a knockout is 
not just at risk for subsequently sustaining another traumatic 
brain injury but also for slower recovery after each subsequent 
brain injury.
    Ms. Schakowsky. So, if that is the goal of the sport--that 
is, you make more money if you knock someone out--and there is 
general agreement that that is dangerous, translating that to 
youth sports, isn't that a problem? The kids like this because 
probably they are watching adults in the MMA sports.
    Ms. Dams-O'Connor. It is an enormous problem. Any sport 
that has as a goal traumatic brain injury with loss of 
consciousness is tremendously concerning. Over the years, the 
regulations that have been applied to MMA and to boxing have 
changed. They differ across state lines, and the sport has 
changed in response. It is not unprecedented that changes in 
regulation have actually changed the sport.
    In MMA, there is a lot of competition that involves 
technique and skill that has nothing to do with incurring head 
trauma. A lot of the sport would be preserved even if knockouts 
became no longer an acceptable component of the sport.
    Ms. Schakowsky. Thank you.
    I yield back.
    Mr. Latta. Thank you very much.
    The gentlewoman yields back.
    And the chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I want to thank the chair and the ranking member for having 
the hearing today.
    As several of our witnesses pointed out, the popularity of 
mixed martial arts has grown significantly in recent years. 
This hearing is a good opportunity to look at the increasing 
important industry of the MMA and try to see where Federal law 
can both support its success and help make sure the fighters 
are protected.
    Mr. Couture, can you tell us about the current ranking 
system of MMA impact fighters?
    Mr. Couture. The current ranking system in mixed martial 
arts is set up and is established by the promoter himself. So 
Bellator has their own rankings. UFC has their own rankings. 
Professional Fight League has their own rankings. They 
establish those rankings based on the fighters that are under 
contract with that promotion. They create their own titles and 
have those fighters that are under contract with them fight for 
those rankings and those titles.
    There is no independent organization established that 
crosses and covers the entire sport for rankings and/or titles 
at this time.
    Mr. Green. How much does a fighter's athletic ability 
contribute to their rank, since there are no standards?
    Mr. Couture. Well, as I stated in my comment, there is no 
real regulated amateur sport at this time, and I think that 
that is something that our sport needs to address. We need a 
sanctioning body or an amateur sports organization that covers 
mixed martial arts nationwide, like USA Wrestling or USA Boxing 
or USA Taekwondo or USA Judo, that would regulate the amateur 
sport, and then you would see young athletes that compete in a 
watered-down version of MMA.
    To assume that we are having 6-year-olds beating the hell 
out of each other, frankly, like a professional mixed martial 
artist, I don't think that is what we are seeing. I don't think 
that is what happens.
    Are they training in mixed martial arts? Absolutely. 
Learning submission skills and the general body movements and 
they are training on striking and all those things, but they 
are not competing and trying to knock each other out. Contact 
is part of every sport. My sister was subjected to concussions 
in soccer from heading a soccer ball. It is there. We all know 
the inherent risk in the sports we partake in. But I think you 
are right: mitigating that risk is important.
    But rankings would come through that amateur system. As I 
came out of wrestling, there was no professional outlet for me 
as an amateur wrestler, as an Olympic caliber wrestler. I 
forayed into mixed martial arts because I could use all those 
skills in mixed martial arts. I had to learn a lot of other 
skills as well, the striking and the other things that weren't 
encompassed in wrestling, but I had a certain level of 
expectation placed upon me, but there was no official ranking 
because of my wrestling background. It doesn't really exist in 
mixed martial arts right now.
    Mr. Green. So you think an independent ranking system would 
change the MMA industry?
    Mr. Couture. I think an independent ranking system--we were 
just talking about a world championship. Well, there was no 
other athlete from any of these other promotions that was 
included in that ranking or able to even compete for that world 
championship. So how is that a true world championship? It is 
basically ceremony for that particular promotion to say that is 
the world championship.
    If we had an independent ranking system that included all 
the promotions that have fighters signed to their promotion and 
rank them with some criteria that is officially recognized by 
the athletic commissions, then we could have promoters compete 
to make those best fights happen, and those fighters could then 
be remunerated for the possibility to fight for that real world 
championship.
    Mr. Green. Since we are looking at this legislation on the 
Muhammad Ali Act, do you have any recommendations on ways that 
MMA fighters and promotion companies might be able to reduce 
the risk of head injury?
    Mr. Couture. I think right now with current medical 
requirements by most all the state and Tribal athletic 
commissions, CT scans, regular physicals and checkups, 
suspension processes that are put into place by athletes that 
are TKO'd or KO'd for at least a minimum of 90 days after a 
fight, a lot of the regulations that are in place now from the 
athletic commissions are working. Is it inherent risk in 
training? Absolutely. But we as fighters, the last thing I want 
to do is sustain a concussion or get knocked on my butt while I 
am in that 10-week training camp going into a fight. So I train 
with very specific guys that I know, that I trust. I wear head 
gear a lot of times. I use bigger, more padded gloves than I 
will on the night of the fight when it is on the line to 
mitigate that possibility that I sustain a cut or that I get a 
concussion going into that fight. We are smart. We are not out 
there just trying to beat the hell out of each other.
    Mr. Green. I have one more question, Mr. Chairman. I know I 
am out of time, but you told us that the MMA fighters would 
have more economic independence to ensure they can operate as 
independent contractors. Can you tell how that would work and 
how--an example of you give fighters more control over who they 
fight or how many times a year they fight?
    Mr. Couture. We are independent contractors now. I was an 
independent contractor when I was under contract with the UFC. 
That is how our sport is set up. So it is up to me what I get 
paid for the times I fight, to regulate my taxes and all those 
other things as an independent contractor. I am not an employee 
of that promoter. I am signed on an independent contract with 
him as an independent contractor.
    If I was allowed to cross promotion lines, my example was 
the Fedor Emelianenko fight. He was signed with Pride; I was 
signed with the UFC. Those are promotions. They promote fights. 
But there was no crossover. It wasn't allowed. There was no way 
for me to go fight what most people in the media felt was the 
number one fighter in the world, Fedor Emelianenko, because I 
was signed to an exclusive contract with the UFC.
    This is that coercive--if I want to be ranked and fight for 
that promotion, I have to sign that exclusive contract, sign 
away all my ancillary rights in perpetuity in a whole bunch of 
categories that are worth a lot of money. And I am not allowed 
to go and fight that guy that I want to fight that would have 
been a Super Bowl of mixed martial arts at that time.
    Mr. Green. Mr. Chairman, I know I was way over time. I 
thank you.
    Mr. Latta. The gentleman's times has expired.
    And seeing no other members here to ask questions, again, I 
want to thank our witnesses for testifying before the 
subcommittee today.
    And I would like to include the following documents be 
submitted for the record by unanimous consent: the statement of 
Ms. Tracey Lesetar-Smith at Bellator MMA; a letter from Mr. Jon 
Fitch, professional MMA fighter; on behalf of the UFC, a letter 
to the Committee on Energy and Commerce and the Committee on 
Education and Workforce; a New York Times Magazine article; two 
National Review articles; a Washington Examiner article; and a 
Daily Caller article.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. Pursuant to committee rules, I remind members 
that they have 10 business days to submit additional questions 
for the record, and I ask that the witnesses submit their 
response within 10 business days upon receipt of those 
questions.
    And, without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    Good Morning, and thank you to all of our witnesses for 
appearing before this Committee today. Thank you especially to 
Mr. Couture-although I understand you were born in Washington 
State, you have spent enough time in Oregon that for purposes 
of this hearing we will consider you an honorary Oregonian. \1\
---------------------------------------------------------------------------
    \1\ For reference only: Mr. Couture lived in Corvallis, where he 
served as a wrestling and strength coach for OSU, and he started ``Team 
Quest,'' a training camp for MMA fighters, out of Gresham. For a time 
he was listed as ``fighting out of Roseburg, OR'' on his MMA profile.
---------------------------------------------------------------------------
    This hearing will also examine H.R. 44, the Muhammad Ali 
Expansion Act, sponsored by our colleague Congressman Markwayne 
Mullin of Oklahoma. I look forward to a thoughtful discussion.
    Mixed martial arts have enjoyed tremendous popularity since 
UFC 1 was held almost exactly 24 years ago in Denver, Colorado, 
on November 12, 1993. Since that event the sport has grown to 
be an international sensation, viewed in 1.1 billion homes in 
156 countries around the globe. And it is an economic 
powerhouse: last year the UFC sold for $4 billion, and both UFC 
and Bellator compete for contracts with the most well-known and 
accomplished fighters that battle at widely-attended events.
    In the U.S., mixed martial arts bouts are subject to 
regulation in all 50 states. These regulations are primarily 
concerned with protecting the integrity of the sport and the 
safety of the fighters.
    In many ways MMA's regulation is similar to that of boxing, 
but the two sports have differences beyond merely the tactics 
employed by the fighters. Unlike in boxing, MMA has no 
centralized ranking system, and title bouts are largely 
determined by the promoters of the sport. Fighters are treated 
as independent contractors, and enter into agreements with the 
promoters of a particular MMA organization, which may contain 
exclusivity clauses barring the fighter from engaging in 
unapproved fights.
    The growth of MMA in the United States has been a 
tremendous success story. At today's hearing we look forward to 
hearing the witnesses describe their experiences as regulators, 
competitors and promoters, and to learn about any ideas or 
recommendations that can help MMA continue to thrive. This 
Committee is committed to ensuring the safety and well-being of 
the athletes, healthy competition among promoters, and support 
for our state regulators.
    Thank you and I yield back the balance of my time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
